                          UNCLASSIFIED

       United States Department of State
     and the Broadcasting Board of Governors
               Office of Inspector General




                 Report of Inspection

The Broadcasting Board of
 Governors’ Operations in
  and Broadcasting to
      Afghanistan



Report Number ISP-IB-06-02, February 2006



                              IMPORTANT NOTICE
 This report is intended solely for the official use of the Department of State or the
 Broadcasting Board of Governors, or any agency or organization receiving a copy
 directly from the Office of Inspector General. No secondary distribution may be
 made, in whole or in part, outside the Department of State or the Broadcasting
 Board of Governors, by them or by other agencies or organizations, without prior
 authorization by the Inspector General. Public availability of the document will
 be determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.
 Improper disclosure of this report may result in criminal, civil, or administrative
 penalties.



                           UNCLASSIFIED
                                          UNCLASSIFIED



                            TABLE OF CONTENTS

                                                                                                                   PAGE

KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONTEXT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
RESOURCES ARE WELL MANAGED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
BBG PROVIDED CRITICAL COVERAGE AND EXPANSION WITH OWN
RESOURCES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
BBG HAS MADE PROGRESS ON OBJECTIVES AND MILESTONES . . . . . . . . . . 13
BROADCASTS’ IMPACT DIFFICULT TO MEASURE . . . . . . . . . . . . . . . . . . . . . . . . 27
FORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39
APPENDIX: TIMELINE OF BBG’S AFGHANISTAN OPERATIONS . . . . . . . . . . . . 41




                                             UNCLASSIFIED
                                      UNCLASSIFIED




                              KEY JUDGMENTS


    •    Broadcasting Board of Governors’ (BBG) operations in and broadcasting to
         Afghanistan are driven by the agency's strategic plan and Administration
         policy. They are well conceived, well managed, and carried out in a chal-
         lenging environment.

    •    BBG objectives are solid and, for the most part, mesh with interagency
         objectives. The agency has succeeded in meeting some goals and objectives
         but still needs to work on others, including measures of success and impact.
         BBG also needs to move from a short-term reactive vision to one that is
         more strategic in terms of the next steps in Afghanistan.

    •    Afghanistan receives attention at the highest level of BBG and receives a
         share of agency resources that reflect its priority status. Coordination
         within the agency and with other agencies is good but could be improved.
         Afghanistan appears to be a resounding success for BBG based on the build
         out of its infrastructure, stringer networks, audience share, credibility, and a
         significant amount of anecdotal evidence regarding impact. BBG, Voice of
         America (VOA), and Radio Free Europe/Radio Liberty (RFE/RL) have
         strong faith in the impact of BBG's efforts.

    •    OIG recommends that BBG provide data that better measures the impact
         of its broadcasting to Afghanistan, and look into alternative measurement
         instruments to determine whether and how the instruments can measure
         agency performance.

    OIG's Office of Inspections conducted this review between August and No-
vember 2005 in accordance with quality standards prescribed by the President's
Council on Integrity and Efficiency. Major contributors to this report were Dr.
Louis A. McCall, coordinator of the International Broadcasting and Public Diplo-
macy Evaluations Unit, and Martha K. Goode, senior management analyst. Field-
work was conducted in Kabul on October 20, 2005, by William Cavness, Deputy
Team Leader for the inspection of Embassy Kabul, and William Belcher, senior
security inspector. In Kabul, OIG met with VOA, RFE/RL staff at Radio Free
Afghanistan's news bureau, and with IBB's local contractor for engineering issues.
OIG also met with Embassy Kabul officers who are aware of or are supporting
BBG/IBB operations in Afghanistan.

OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006   1 .

                                      UNCLASSIFIED
                           UNCLASSIFIED




2 .   OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006


                           UNCLASSIFIED
                                         UNCLASSIFIED




                                         CONTEXT


    Afghanistan has an ancient culture and a long and storied history that includes
the involvement of the great powers in its affairs over the centuries. In the modern
era, the watershed event was the 1979-1989 Soviet occupation. The resulting
resistance movement, the Mujahedeen, drew members from around the Muslim
world, including Osama bin Ladin. Unfortunately, some of those who honed their
fighting, tactical, and organizational skills as Mujahedeen went on to become
today's Islamic terrorists and to form the nation's totalitarian Taliban regime, which
gave sanctuary to bin Ladin and his al Qaida organization.

    Some 50 percent of Afghanistan's nearly 30 million people speak Dari, while
about 35 percent speak Pashto. There are several other important languages,
including Tajik, Uzbek, and Turkmen, and a significant amount of bilingualism.
U.S. broadcasts to Afghanistan have been in Dari and Pashto, and VOA Worldwide
is available in English and Special English. VOA began broadcasting to Afghani-
stan in Dari via shortwave for a limited number of hours in September 1980,
shortly after the Soviet occupation began. VOA broadcasts in Pashto followed,
starting on July 4, 1982. RFE/RL began broadcasting to Afghanistan in September
1985 but discontinued broadcasting in October 1993 after the end of the Soviet
occupation.

    The United States renewed its focus on Afghanistan after the September 11,
2001, terror attacks and the decision of Taliban leader Mullah Omar Muhammad to
continue providing sanctuary to Osama bin Ladin and his Al Qaida organization.
The United States began bombing terrorist strongholds in Afghanistan in October
2001, and BBG increased its VOA programming in Dari and Pashto, the two largest
official languages in Afghanistan, from 1.25 hours to 3 hours a day. That same
month, USAID's Office of Transition Initiatives entered into an agreement with
VOA to fund the VOA Dari and Pashto services' creation of a network of stringers
in countries neighboring Afghanistan. On January 11, 2002, the Radio Free Af-
ghanistan Act was signed into law.1 RFE/RL resumed Dari and Pashto broadcasts




P.L. 107-148, codified at 22 USC 6215.
1




OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006   3 .

                                         UNCLASSIFIED
                                   UNCLASSIFIED



      to Afghanistan on January 30, 2002. The following month the first bilateral agree-
      ment was signed, permitting IBB to install and operate transmitters. On August 4,
      2002, the Dari and Pashto broadcasts of VOA were meshed with those of RFE/
      RL's Radio Free Afghanistan, creating the Afghanistan Radio Network, a 24-hour
      program stream on shortwave and FM using the same frequencies. The two broad-
      cast entities also maintain separate programs (RFE/RL's Radio Azadi and VOA's
      Radio Ashna) and have developed strong presences in the Afghan media market,
      which has moved from state domination to include international and private-sector
      broadcasters. In the meantime, the IBB AM transmitter became operational on
      April 30, 2003.




4 .           OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006


                                   UNCLASSIFIED
                                       UNCLASSIFIED




         RESOURCES ARE WELL MANAGED


    OIG found BBG resources devoted to Afghanistan were well managed and
coordinated within BBG and the Department and with other agencies. There is
also room for improvement.



COORDINATION IS GOOD BUT COULD IMPROVE
    BBG Chairman Kenneth Tomlinson has taken personal responsibility for the
success and coordination of operations in and broadcasting to Afghanistan and in
July 2005 traveled to Afghanistan himself. BBG broadcasts to Afghanistan with
VOA and RFE/RL providing program content through their respective Afghanistan
services, which together make up the Afghanistan Radio Network. Transmission
support for both is provided by IBB. The VOA director and RFE/RL's president
have a good relationship for coordinating their efforts in Afghanistan. Although
there is some professional rivalry, from mid-level management down to stringers,
there is an air of cooperation and a determination to improve that cooperation with
the support of senior management. Both organizations have a good relationship
with IBB regarding program delivery, although some frustrating technical issues
remain. In the RFE/RL Radio Free Afghanistan FY 2004 Evaluation Summary,
Radio Free Afghanistan's service director said "the technical difficulties facing the
service's programming -- from...AM problems in Kabul, from frequent technical
interruptions in Kabul-to-Prague live transmission, to ongoing power outages
everywhere -- pose a serious challenge to the service's effectiveness."2

     The Department, BBG, USAID, Department of Defense (DOD), Office of
Management and Budget (OMB), and National Security Council all are stakehold-
ers regarding Afghanistan. BBG coordinates with the other major participants
through different officials at varying levels, but all BBG officials are not aware of
all the others in their agency who have contact with other agencies on Afghanistan



2
 Radio Free Afghanistan FY 2004 Evaluation Summary, Subject: Evaluation of Radio Free Afghanistan Program-
ming, FY 2004, Radio Free Europe/Radio Liberty, Audience Research & Program Evaluation, Prague, Nov.
1, 2004, p. 5.


OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006             5 .

                                       UNCLASSIFIED
                                   UNCLASSIFIED



      matters. This appears to be due to the Afghanistan program's history of several
      years as a prominent program with a relatively smooth and successful operation.
      The chairman is the key contact with the above agencies, but the IBB's director of
      the Office of Engineering and Technical Services has the most developed relation-
      ship with DOD regarding on-the-ground issues in Afghanistan. VOA officials from
      the West and South Asia Division regularly attend meetings of the Strategic Com-
      munication Sub-Policy Coordination Committee on Afghanistan, which are hosted
      by the Department. Meanwhile, the need to coordinate with USAID is less than it
      was at the beginning of BBG's expanded interest in Afghanistan. Even so, closer
      coordination could have promoted greater synergy and understanding of how each
      other's activities in Afghanistan could help or hinder each other's goals. In particu-
      lar, this would have addressed the differences in the strategies for working with and
      nurturing Afghanistan's media.

          Within Afghanistan, Embassy Kabul has been invaluable to BBG's efforts,
      working as needed with all levels of BBG, IBB, VOA, and RFE/RL. This assis-
      tance has included support for visits to Afghanistan, assistance with formalizing
      bilateral agreements, physical security consultations, and logistical support from the
      public diplomacy and administrative sections of the embassy. Embassy Kabul's
      Mission Performance Plan for FY 2007 also addresses the coordination of U.S.
      international broadcasting with USAID, DOD, and the Afghanistan Reconstruction
      Group.

           The VOA's stringer operation in Kabul is a simple one. VOA has occupied
                                        office space, without cost, in the RFE/RL building
                                        for three years. This includes a small broom-closet-
                                        sized studio in the building that was built by and is
                                        solely used by VOA. RFE/RL has its own larger
                                        studios, and technical and scheduling reasons pre-
                                        vent the two broadcasters from sharing studios. The
                                        VOA stringer coordinator does not consider RFE/
                                        RL a competitor. RFE/RL occupies most of the
                                        office space in the building, and the stringer office is
                                        100-percent dependent on RFE/RL for technical
       Figure 1: VOA mini studio        services. VOA also uses the RFE/RL network
                                        server for Internet access. RFE/RL pays all the
      utility costs for the building, and VOA pays only for telephone service. VOA and
      RFE/RL do have separate administrative arrangements for paying vendors and
      stringers that differ in important ways. There are 45 RFE/RL core staff in Kabul,




6 .           OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006


                                   UNCLASSIFIED
                                      UNCLASSIFIED



including reporters, feature writers, and technical support staff. The RFE/RL staff
in Kabul would like to relocate to a larger, more secure and practical office soon, as
the current facility is cramped (the VOA mini-studio is under a stairway) and
unsuitable for the scale of operations.



SECURITY AT THE VOA AND RFE/RL OFFICES
     Security is a paramount concern at all U.S. government and corporate facilities
in Kabul. The RFE/RL Kabul bureau and the VOA stringer office share space in a
villa on a small walled compound in a Kabul residential neighborhood. Security in
the area is good, since there are a number of international and diplomatic offices
nearby. RFE/RL provides security in the building, and the RFE/RL administrative
officer, a former Afghan army general, serves as security chief and has a close and
effective relationship with the police. The VOA and RFE/RL offices receive
embassy security advisories by e-mail.

    OIG advised the RFE/RL bureau chief that the facility's fire extinguishers
were well past their recharge dates and the building should have a first aid kit.
Although all employees on the compound expressed satisfaction with security, OIG
did suggest that RFE/RL request a courtesy consultation from the embassy's
regional security officer. OIG made no security recommendations.




OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006   7 .

                                      UNCLASSIFIED
                           UNCLASSIFIED




8 .   OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006


                           UNCLASSIFIED
                                      UNCLASSIFIED




 BBG PROVIDED CRITICAL COVERAGE
AND EXPANSION WITH OWN RESOURCES


    At critical junctures in the transition of Afghanistan from Taliban rule to
democracy, BBG has provided news coverage and discussion that helped unify the
nation. The Taliban-controlled state radio service had been destroyed during the
U.S. attack and, in the aftermath, Afghans had few sources of news. VOA filled
this near vacuum, achieving an astounding 80-percent audience among males in a
survey. (Women could not be surveyed.) Joined in 2002 by RFE/RL's Radio Free
Afghanistan, the two broadcasters carved out an important niche that has endured
even as Afghanistan has developed its own media with USAID and Department
assistance. In addition to the major BBG Dari and Pashto programming initiatives
a recent BBG nationwide survey reveals that small but significant portions of the
Afghan population listen to programming by BBG broadcasters in Urdu, Tajik,
Turkmen, and other languages. International broadcasters and those of neighboring
countries have also added to the media mix.

    BBG broadcasts by VOA and RFE/RL were important in the pre- and post-
conflict periods, although RFE/RL did not broadcast Radio Free Afghanistan until
2002. Since 2002, VOA and Radio Free Afghanistan (both as separate entities and
later as components of the Afghanistan Radio Network) informed the Afghan
public of the process, proceedings, and legitimacy of the June 2002 conference that
ultimately led to a new, elected regime. At that time, USAID transferred $187,820
to VOA to hire stringers, acting in conjunction with the Bureau of South Asian
Affairs' Office of Public Diplomacy (SA/PD). (This agreement was increased
twice to provide $378,533 in additional funds and ended on January 31, 2003.)
Emergency Response Funds appropriated to OMB were transferred to BBG to
establish a mediumwave transmitter in Afghanistan. Likewise, VOA and Radio
Free Afghanistan, working under the umbrella of the Afghanistan Radio Network,
yet maintaining their own identities and uniqueness, played similar roles during the
run up to the December 2003 constitutional conference, the October 2004 presi-
dential election, and the September 2005 national parliament elections. To en-
hance coverage of the national elections, BBG internally reprogrammed funds so
that VOA could hire additional stringers for reporting and purchase additional FM




OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006   9 .

                                      UNCLASSIFIED
                                    UNCLASSIFIED



       radio stations for underserved but important portions of the country. During the
       2005 parliamentary elections, VOA also sent correspondents from other bureaus,
       such as the VOA New Delhi News Bureau, to provide coverage for its Worldwide
       English service.

           As detailed later in this report, the Department's Bureau of International
       Narcotics and Law Enforcement affairs (INL) has also funded some of VOA's
       news coverage and programming in Afghanistan. Furthermore, in December 2001,
       VOA submitted to USAID an ultimately unsuccessful proposal that sought $4.5
       million in annual funding to increase radio and television programming for Afghani-
       stan. That request aside, BBG does not use funding from outside sources for
       general coverage of news events or long-term enhancements to on-going operations
       and current programming. Rather, funding from outside sources is intended to fund
       coverage of a specific event, such as an election, as well as coverage of a specific
       topic, such as narcotics.

          This situation of multiple funding sources has caused some VOA employees to
       express frustration over having to go outside the agency to obtain funds for their
       work. Other evidence of this concern comes from the VOA Pashto Action Plan,
       which twice referred to this situation. At one point, the plan said, "VOA Pashto
       and Dari [services] are forced to rely on uncertain, short-term, outside funding to
       maintain their stringer networks in Afghanistan and other countries. If BBG and
       VOA are committed to reaching Afghanistan on a long-term basis, more perma-
       nent, institutional funding is necessary."

           Short-term funding needs were solved in the final days of FY 2003 by a trans-
       fer of $357,000 in economic support funds from SA/PD to VOA to fund news
       coverage of the creation and implementation of a new Afghan constitution. Al-
       though the development was welcome, the VOA Action Plan said it "...perpetuates
       VOA reliance on outside funding for adequate news coverage of a vital region at a
       crucial moment in Afghanistan's history."




10 .           OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006


                                    UNCLASSIFIED
                                      UNCLASSIFIED



    BBG has increased base resources dedicated to Afghanistan through the annual
budget process and successfully sought an increase to its budget for broadcasting to
Afghanistan in FY 2006. Although OIG found that BBG operations in and broad-
casting to Afghanistan fared well in comparison with other language services in
BBG's total budget, it is clear that BBG had too many competing priorities for the
                                                                    limited funding
                                                                    available to it.
            VOA Afghan Service FY 2005 Budget
                                                                    The 9/11
                                                                    Commission's
   Gross Operating Expense and Salaries*          $3,345,295
                                                                    report noted
   INL Counter Narcotics                          $231,820
   SA/PD FY 2004 Election Funds                     $31,965         that BBG "has
   Approximate Total                             $3,609,080         begun some
   *BBG baseline for Dari and Pashto                                promising
   Source: BBG                                                      initiatives in
                                                                    television and
                                                                    radio broadcast-
ing to the Arab world, Iran, and Afghanistan," and asserted that BBG should get
the money it requested. OIG supports increased additional base funding for BBG
to allow BBG to increase its funds for Afghanistan initiatives. The FY 2005 budget
for RFE/RL's Radio Free Afghanistan was $3,587,000. The VOA Afghan Service
spent $3,609,080 in FY 2005. The total FY 2005 estimated cost for the BBG
broadcasts to Afghanistan is $9.6 million for operations and $.5 million for capital
costs. Of this, $400,000 came from interagency agreements with USAID and the
Department. Annual operating costs for the FY 2001 - FY 2005 period total
approximately $66.6 million in the aggregate, including $18.6 million in capital
costs.




OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006   11 .

                                      UNCLASSIFIED
                            UNCLASSIFIED




12 .   OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006


                            UNCLASSIFIED
                                       UNCLASSIFIED




            BBG HAS MADE PROGRESS ON
            OBJECTIVES AND MILESTONES


    OIG also examined the extent to which BBG efforts in and for Afghanistan
have met the goals, objectives, and milestones of the BBG strategic plan, the
Afghanistan Radio Network FY 2004 Performance Plan, and the requirements of
the Radio Free Afghanistan Act of 2002.



BBG HAS HAD SEVERAL SUCCESSES
    BBG has achieved its Afghanistan-specific objective in its strategic plan and
applied many general goals and objectives from the plan to Afghanistan. BBG has
had outstanding success putting the broadcasting infrastructure in place, getting
programs on the air, developing and deploying stringer networks, and building and
maintaining audience shares that are among the highest of BBG's language ser-
vices. Acting in a short time under adverse conditions, BBG has met or exceeded


                         Afghanistan Nationwide Weekly Audience


     70

     60

     50        67.3%         61.6%

     40                                     49.7%


     30                                                    40.7%


     20                                                                  28.6%


     10

      0
              BBC       RFE/RL Azadi       Radio       VOA Ashna     Radio Arman
                                        Afghanistan



    Source: InterMedia, Radio Free Afghanistan Service Review Presentation
    Dec. 2004




OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006   13 .

                                       UNCLASSIFIED
                                        UNCLASSIFIED



       nearly all goals of its FY 2003, FY 2004, and FY 2005 Afghanistan Radio Network
       Annual Plans. Independent Department-sponsored audience research in 2005
       showed U.S. international broadcasting to Afghanistan gaining a strong response
       from those asked to identify their "most important source of information."3



       BBG HAS INFRASTRUCTURE IN PLACE
           BBG's first strategic goal is to design a broadcasting infrastructure for the
       twenty-first century. Prior to the 9/11 attacks, BBG had only minimal activity
       regarding Afghanistan. VOA broadcasted to Afghanistan only over shortwave
       frequencies and only for one and a half hours a day. IBB is currently transmitting
       VOA and RFE/RL programming to Afghanistan via shortwave from IBB transmit-
       ting stations in three countries, providing 53 hours of programming daily. IBB has
       also installed a high-power mediumwave AM transmitter in Kabul and five FM
       transmitters around the country, with three more FM transmitters planned in FY
       2006, and may further expand the AM network. IBB had to overcome huge chal-
       lenges in what was then a war zone and where insurgent activity today affects




           Figure 2: Transmitting station before repairs               Figure 3 : Transmitting station after
                                                                                repairs by BBG

       logistics, security, and operations. U.S. military forces damaged or destroyed much
       of the Taliban-controlled state-broadcasting infrastructure, requiring DOD to use
       flying platforms for some broadcasting in the war's aftermath. Later, a bilateral
       agreement set up a temporary 1-kiloWatt (kW) FM transmitter for Kabul that
       became operational on May 15, 2002. What had been the main AM broadcast


       3
           U.S. Department of State, Office of Research, August 2005 Nationwide Survey in Afghanistan.




14 .               OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006


                                        UNCLASSIFIED
                                      UNCLASSIFIED



facility of Afghanistan's state-run network, Radio Television Afghanistan (RTVA),
had to be repaired by IBB before it could return to operation. Nonetheless, doing
so was a quicker and less costly option for IBB, compared to constructing a new
medium wave transmitter site.

    Some problems remain, but IBB continues to improve on its performance in
Afghanistan. IBB employed RTVA to run the IBB facilities, and the IBB's Ger-
many Transmitting Station, which directly oversees the Afghan facilities, has
contracted with a highly regarded Western-trained, local engineer, who will trouble-
shoot IBB's Afghan operations and ensure that IBB's transmitters there are always
running. This arrangement represents a tremendous savings over using IBB Foreign
Service officers and provides greater flexibility and mobility because costly and
restrictive security requirements and procedures do not apply.

    Nevertheless, IBB's transmitters are sometimes off the air due to Afghanistan
conditions. Under the May 19, 2003, bilateral agreement, IBB's AM and FM
transmitters were installed in pairs, with BBG donating one transmitter in each pair
to RTVA. Subsequently, RTVA technicians cannibalized the IBB AM transmitter
to gain the spare parts needed for the AM transmitter RTVA gained under the
bilateral agreement. Afghanistan's unreliable power situation and the initial lack of
a functioning generator for the AM transmitter also cut into broadcasting time.
Even now the AM transmitter is off the air an average of two hours daily (based on
a randomly picked two-week period July 18-31, 2005) for power reasons. The FM
transmitters have also experienced occasional power problems; one reason was the
lack of fuel, due to countrywide shortages, for the backup or primary generator.
Afghanistan's mountainous topography and its underdeveloped power grid also
challenged IBB broadcasting and the possibility of expanding it. Nonetheless,
VOA TV has been providing a weekly TV show since November 2001 and plans to
premier a daily TV program in spring 2006.



IBB HAS EXPANDED ITS NETWORK IN AFGHANISTAN
    BBG's second strategic goal is to expand the U.S. international broadcasting
system through regional networks and single-country priority initiatives. Afghani-
stan is a single-country priority initiative, and one of BBG's objectives under this
goal is to harmonize Radio Free Afghanistan and VOA in the Afghanistan Radio
Network. On August 4, 2003, BBG integrated the 12 hours that VOA and Radio
Free Afghanistan each broadcasted daily into one 24-hour, integrated stream that



OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006   15 .

                                      UNCLASSIFIED
                                    UNCLASSIFIED



       began with dispersed segments. The two broadcasters' 12-hour segments are now
       presented in a continuous block, due to an agreement between VOA and RFE/RL,
       but the two broadcasters still must improve cross promotion and offer a smoother
       hand off between each other at the beginning and ending of their 12-hour blocks.

           VOA and RFE/RL are committed to increased cooperation and their steps in
       that direction include having the director of the VOA Afghanistan Service visit
       RFE/RL headquarters in Prague during 2005. The new chief of Radio Free
       Afghanistan is also a former VOA employee, and his presence in Prague may
       facilitate increased cooperation.

           Furthermore, VOA and RFE/RL have both expanded their journalistic pres-
       ence outside of Kabul. Whereas VOA had only three stringers before the 9/11
       attacks, it now regularly has 17 stringers in Afghanistan, plus four who were added
       during the September 2005 elections and another 19 funded by and dedicated to
       INL priorities. Some of the regular VOA stringers are tasked with doing some
       counternarcotics-related stories while some of the INL-funded stringers were also
       tasked with election coverage. RFE/RL has 125 staff countrywide, including 45 in
       Kabul. This also includes the eight employees who work for other language ser-
       vices (such as Tadjik and Uzbek) and are paid directly by their language service's
       office in RFE/RL.

           The two broadcasters cover 20 of Afghanistan's 34 provinces, endeavoring to
       have coverage with Pashto- and Dari-speaking stringers in each location and to
       have overlap between them. RFE/RL has a building in Kabul for its news bureau.
       There, RFE/RL provides space to VOA and has allowed VOA to construct its
       mini-studio. The expanded journalistic presence has increased news coverage.
       However, due to Afghanistan's many dangers, some stringers have been relocated.

           OIG visited IBB's operations at the RTVA transmitter site, about 30 minutes by
       car from downtown Kabul. The site has two modern 400-KW transmitters, one
       operated for IBB and one for Afghanistan state radio. The site's small staff says it
       can handle most maintenance requirements and that its biggest concern is the
       fluctuation in the Kabul power grid. With the power supply varying between 8
       kilovolts and 13 kilovolts, the staff often must shut down the BBG transmitter and
       restart it on power supplied by an old Soviet generator that is unreliable and needs
       voltage regulation equipment. The site's RTVA staff, which runs the IBB transmit-
       ter under contract with IBB, estimated that, following a manual start of the genera-
       tor, it could take up to 20 minutes between shutting down the transmitter and
       getting it back on the air. However, the contract liaison with IBB's Germany
       Transmitting station said this transition takes as little as five minutes.


16 .           OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006


                                    UNCLASSIFIED
                                      UNCLASSIFIED




    Figure 4: Old Soviet-era generator                    Figure 5: New USAID-supplied generator


    In contrast, the RTVA staff showed OIG the new automatic-starting generator
that USAID supplied to Afghan state radio. This excellent piece of equipment is
used to keep the state radio network's transmitter on the air when there are power
grid problems. The RTVA employees also said they wished the U.S. government
would provide a similar generator for the IBB transmitter. This resulted from
inadequate communication by USAID with the BBG. BBG believes USAID could
have provided additional auto-start generator capacity for the BBG transmitter for
a relatively small incremental cost, which the BBG might have been able to fund
had it had timely knowledge of the project.

BBG Employs Modern Communications Techniques and
Technologies
                          Regular Access To A Working Television




        90%
        80%            90%
        70%                                   78%
        60%
        50%
        40%                                                         48%
        30%
        20%
        10%
         0%
                  Kabul Urban       Other Urban Centers       Rural Areas



                                          Source: InterMedia


OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006   17 .

                                      UNCLASSIFIED
                                    UNCLASSIFIED



           BBG's third strategic goal is to employ modern communication techniques and
       technologies. Both VOA and RFE/RL have set up Internet websites in Dari and
       Pashto, and BBG has a multi-entity group that is developing Internet performance
       measures. However, the audience in Afghanistan that can use this technology is
       small and elitist.

           Television broadcasting is now part of the Afghanistan media mix, although
       VOA TV has had this initiative to itself due to its television experience and infra-
       structure. RFE/RL has a proposal before the BBG and fears that, if it does not
       move into television, its strong position in radio in Afghanistan will be eroded as
       the market moves to television. Given the cost of television, especially for a start
       up operation, OIG believes BBG has made the correct choice for now. However,
       BBG may be able to extend the VOA collaboration with RFE/RL in Afghanistan
       into television, with VOA taking the lead and being the custodian of the technol-
       ogy. Either way, the infusion of more TV programming into the Afghan mix will
       require much additional money. For now, BBG's expertise and greatest return on
       investment in Afghanistan is in radio.

            One strategic plan objective under this goal is to use modern radio "formatics,"
       or styles of broadcasting for particular audiences. In response, RFE/RL and VOA
       have re-branded their Afghan radio programs. The VOA brand is now Radio
       Ashna, which means "friend" in Dari and Pashto. RFE/RL's Radio Free Afghani-
       stan has re-branded itself as Radio Azadi, which means "liberty" in Dari and
       Pashto. More importantly, both services have applied some of the principles of
       formatics and given their broadcasts the equivalent of face-lifts that both broad-
       casters are pleased with. Both remain strong performers, despite increased compe-
       tition from start-up private-sector stations and the growing popularity of TV,
       especially during prime time. During prime time, VOA takes over the BBG's
       Afghanistan Radio Network for the overnight block of 12 hours. This is one
       reason for the lower performance of VOA, compared to its historic high audience
       share, having had much of the field to itself.

            VOA also may have been hurt in the audience survey by some brand confusion.
       There is evidence that some listeners were not aware that VOA and Radio Ashna
       are the same. Likewise, there is evidence that some VOA Radio Ashna program-
       ming was incorrectly attributed to RFE/RL's Radio Azadi. According to BBG's
       contracted audience research firm, VOA may in fact be stronger than the numbers
       indicate, a view echoed by VOA's director. If Radio Ashna's lower audience share
       is viewed in light of the BBG's threshold standard of a five- percent share, VOA is
       turning in a performance in Afghanistan that VOA's director says is "still astonish-
       ing." VOA notes Afghanistan is one of the five countries with the highest number


18 .           OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006


                                    UNCLASSIFIED
                                          UNCLASSIFIED



of weekly listeners for VOA. Radio Azadi's Afghanistan audience numbers are
certainly larger than those of any other language service or single-country audience
market within RFE/RL as reflected in the following chart.



                       RFE/RL's Weekly Audience

                                                                  Afghanistan 30%
Slavic Former
Soviet Union 27%                                                                        Afghanistan
                                                                                        Central Asia
                                                                                        Caucasus
                                                                                        Iraq
                                                                                        Balkans
                                                                                        Iran
                                                                                        Slavic FSU




                                                                       Central Asia 4%
          Iran 21%
                                                                   Caucasus 4%

                                                             Iraq 8%
                                            Balkans 4%




    Source: BBG Annual Language Service Review 2005 Briefing Book



BBG IS PRESERVING CREDIBILITY AND ENSURING OVERALL
PROGRAMMING EXCELLENCE
    BBG's fourth strategic goal focuses on preserving credibility and ensuring
overall programming excellence. One objective under that goal is to perform
periodic program reviews. Both VOA and RFE/RL have had annual program
reviews, totaling at least four a year with each having conducted program reviews
in Dari and Pashto. Recent BBG-sponsored audience research also shows that
respondents gave a high score to the credibility of RFE/RL and VOA, with RFE/
RL's credibility rating being nearly unmatched by any competitor.4 Separate audi-
ence research sponsored by USAID found the service to have competitive rankings


International Broadcasting in Afghanistan: Audience Analysis & Market Profile, InterMedia, Dec. 2004, p. 16.
4




OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006               19 .

                                          UNCLASSIFIED
                                          UNCLASSIFIED



       in such issue areas as international news, Afghan news, health, and Afghan elec-
       tions and politics when compared with other international, national, and local
       independent stations.5 RFE/RL earned the top ranking in that comparison with
       regard to its coverage of Afghan elections and politics. VOA's credibility, while
       high, is somewhat lower than RFE/RL's, according to surveys. A BBG program
       review also noted that some listeners see VOA as a broadcaster that "reflects the
       policies of the U.S. government," whereas the British Broadcasting Corporation was
       seen as more impartial.6 A reason for Afghan perceptions may be that one service,
       Radio Azadi, does not broadcast editorials although the other service, Radio
       Ashna, does. The editorials may be perceived by some listeners as being less
       impartial.




            Source: InterMedia

           Although the reasons for the Afghan public's views on VOA Radio Ashna and
       the British Broadcasting Corporation have not been conclusively identified, the
       USAID report on Afghan media said, "VOA does not seem to suffer from a suspi-
       cion of propaganda."7 As for the British Broadcasting Corporation, it has more
       than twice the number of FM stations in Afghanistan, compared to BBG's network
       there.

            One of the important features of VOA's Radio Ashna and RFE/RL's Radio
       Azadi are call-in shows and roundtable discussions. In fact, VOA has done live
       call-in shows in Dari for nearly 10 years and is the only international broadcaster
       with a live call-in show in Afghanistan. The VOA call-in shows run seven days a


       5
        Afghan Media - Three Years After: Media and Alternative Sources of Information in Afghan Society, Altai Consulting,
       Nationwide Research - Sept. 2004/March 2005, p. 60.
       6
        VOA Pashto Action Plan Follow Up Notes, Oct. 3, 2003, p. 2.
       7
        Afghan Media p. 60.


20 .              OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006


                                          UNCLASSIFIED
                                      UNCLASSIFIED



week, offering an hour in Dari and an hour in Pashto. They feature a guest,
frequently government ministers or their deputies, and a discussion topic. (Af-
ghanistan President Hamid Karzai's brother has been a guest.) The call-in shows
rarely have the same guests because some guests are not comfortable in both Dari
and Pashto. These guests, and the unscripted free flow of interaction and tough
questions, lend credibility to the service and are an example of accountable,
transparent democracy. The managing editor of VOA's Pashto service calls these
programs "the most important thing that we do."

     An important caveat, when discussing the credibility of VOA TV's weekly
programming for Afghanistan, is that the programming is not branded. It is essen-
tially lifted in segments and appended to a local product without attribution.
However, Afghans who were interviewed claimed to be able to identify VOA TV's
weekly programming by recognizing the broadcasters' voices. The lack of branding
has also come up in program reviews. The new satellite daily TV program will be
branded and will remain whole and not be disaggregated.



BBG'S EFFORTS TO REVITALIZE THE TELLING OF AMERICA'S
STORY
    BBG's fifth strategic goal is to revitalize the telling of America's story, which is
primarily the mission of the VOA charter. One objective under this goal is to
"present targeted editorials that are relevant to local and regional concerns."
VOA's Pashto service, for example, has used U.S. government editorials in up to 38
of its 42 weekly hours of broadcasting. The VOA Dari service has used editorials
in a minimum of 32 of its 42 weekly broadcast hours. Recently, VOA's Dari and
Pashto services have reduced their number of U.S. government editorials.

    VOA's unique contribution to the combined broadcast stream of the Afghani-
stan Radio Network is that its headquarters is in Washington, D.C. Thus, in cover-
ing Afghanistan elections or the Afghan Parliament, VOA is well positioned to
blend in coverage of U.S.-Afghanistan relations or vignettes of U.S. democracy in
action. Such enhancements of its coverage can assist Afghan listeners in under-
standing the democratic process and the role of civil society. They also help the
agency meet its strategic plan objective of being a model of free press and democ-
racy in action.




OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006   21 .

                                      UNCLASSIFIED
                                    UNCLASSIFIED



       THE RADIO FREE AFGHANISTAN ACT OF 2002
            When Congress established Radio Free Afghanistan, it wanted RFE/RL to
       provide surrogate broadcasting services in Dari and Pashto. Impressively, RFE/RL
       established Radio Free Afghanistan within a few months and has since established
       a large news bureau in Kabul and spread a network of stringers around the country.
       Stringers have been trained and are called in to Kabul from time to time for addi-
       tional mentoring and training.



       BBG PERFORMANCE GOALS AND BUDGETING
           One of the initiatives of the President's Management Agenda is budget and
       performance integration. The initiative calls for federal resources to be allocated to
                                                                         programs and
                                                                         managers that
                           BBG Operating Costs                           deliver results and
                  for Broadcasting-Related to Afghanistan                for agency perfor-
                                                                         mance measures
          Service                                FY 2005 estimate        to be well defined
                                                (dollars in millions)
                                                                         and properly
          RFE/RL Radio Free Afghanistan*                  $4.8
                                                                         integrated into
          VOA Dari/Pashto*                                $4.0
                                                                         agency budget
          VOA Interagency Agreements                      $0.4
                                                                         submissions and
          BBG Research                                    $0.2
                                                                         agency manage-
          FM Transmission                                 $0.2
          Total                                           $9.6           ment and opera-
          *shortwave and medium wave                                     tion. However,
          Source BBG                                                     the central admin-
                                                                         istrative and
                                                                         technical support
                                                                         costs for the BBG
       Afghanistan efforts cannot be identified precisely because the Department of State
       financial system that the BBG cross-services for does not automatically allocate
       central support costs. BBG did, in the initial round of OMB's Program Assessment
       Rating Tool reviews, develop a submission for the South Asia and Near East Asia
       region that includes Afghanistan, and its performance plans have been updated for
       each following year. BBG has been able to mesh the performance plan and the
       program review for Afghanistan.




22 .           OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006


                                    UNCLASSIFIED
                                          UNCLASSIFIED



    That data, and the action plan developed during the program review process,
were available in time for the board's annual language service review, which the
board uses to set priorities. The board's priorities, as reflected in the budget, show
Afghanistan's importance. For example, out of a FY 2005 global advertising
budget of over $300,000, the advertising program for Afghanistan received
$80,000. Likewise, the number of stringers in Afghanistan for VOA and RFE/RL
or the number of staff in Washington at VOA or Prague at RFE/RL who work on
Afghanistan in the language services reflect Afghanistan's importance.

    From the BBG chairman on down, BBG officials say the work in Afghanistan
has been successful and has produced results worthy of additional resources.
However, performance measurement, although improved, remains incomplete and
the environment in Afghanistan has emerging needs that do not always fit neatly
into the annual budget cycle. BBG has used funds from other agencies and the
budget request process to help fund its Afghanistan needs. The VOA Afghan
Enhancement Proposal for TV, for example, was developed in July 2004, included
in the Administration's FY 2006 request to Congress, and ultimately included in the
conference bill for the FY 2006 appropriations. The FY 2006 conference report
also included language supporting the increase in BBG's FM and AM capacity and
programming in strategic, underserved regions that are important areas in the global
war on terror. These areas are receiving other radio messages from broadcasters
that do not always support the United States.

                                                                                        Recognizing
                                                                                   that it is not
   BBG Language Service Staff Primarily Devoted to
                                                                                   always easy to
              Afghanistan Broadcasting
   VOA Afghan Service Washington Staff and Contractors                    35       seek funding in a
   VOA West and South Asia Division Staff for Afghan TV                   1        tight fiscal
   VOA Radio Ashna Stringers in Afghanistan                               36       environment,
   VOA Radio Ashna Stringers Outside Afghanistan                          5        OIG supports
   RFE/RL Afghan Service Prague Staff                                     30
   RFE/RL Radio Free Afghanistan/Radio Azadi                                       BBG's request
   Stringers, Technicians, and Support Staff                                       based on consul-
   In Afghanistan                                                         125      tations with
   RFE/RL Radio Azadi Stringers Outside Afghanistan                       8        BBG, the
   Total Afghanistan Language Service Staff                               240      Department, and
   Data based on actuals during September 2005.
   Pashto and Dari languages are combined in this table as one service.            Embassies
   Source: BBG                                                                     Kabul and
                                                                                   Islamabad.




OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006       23 .

                                          UNCLASSIFIED
                                        UNCLASSIFIED



           BBG has expanded efforts to integrate performance and long-term budget
       planning in the formulation of its FY 2006 budget and the FY 2007 Budget Re-
       quest and is now updating its five-year strategic plan, which it anticipates finalizing
       for the FY 2008 budget formulation cycle.



       REACHING AFGHANS VIA TELEVISION
           As confirmed by Department-sponsored research, Afghanistan is a radio-based
       culture, especially as a source for news.8 Under the Taliban, neither televisions nor
       independent news sources were permitted. However, recent surveys show that,
       especially in Kabul and other major cities, access to television is very high, reaching
       about 95 percent in urban Kabul.9 It is common that, where there is access to TV,
       many members of the radio listening audience switch over to the newer medium.
       This is happening in Afghanistan and the greatest impact is being felt on VOA's
       Radio Ashna audience. The USAID study found that, "Among media, radio has a
       clear lead. [However,] TV is rising as the leading medium when available and
       where there are a variety of channels."10 Research by a USAID contractor confirms
       that TV is most competitive with radio in Afghanistan during prime time.11

            As in other countries, younger audiences will increasingly turn to television for
                                                                                news. In
                                                                                Afghanistan,
                                                                                the 15 to 39
                                                                                age bracket
                                                                                makes up 40
                                                                                percent of
                                                                                the popula-
                                                                                tion. How-
                                                                                ever, VOA is
                                                                                constrained
                                                                                by its budget
                                                                                and has,
                                                                                therefore,
                  Figure 3: Afghan Radio and TV use over the course of a day
                                                                                put out only
                   Source: InterMedia


       8
        Afghanistan: Findings from a Nationwide Survey, Office of Research, Department of State, July 2004, p. 16.
       9
        Radio Free Afghanistan Service Review Presentation, InterMedia, Dec. 2004, p. 6.
       10
         Afghan Media p. 90.
       11
         Afghan Media p. 42.


24 .             OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006


                                        UNCLASSIFIED
                                      UNCLASSIFIED



a nominal TV product over the past three years, a weekly half hour of Dari and
half hour of Pashto programming on Afghanistan state TV. To enhance its televi-
sion programming, VOA hopes to add on a new TV program in April or May 2006
that is modeled on the News and Views program put out by VOA's Persian service.
This new one-hour program will run seven days a week. The German international
broadcaster Deutsche Welle already has a nightly news program on Afghanistan
state TV. Since VOA has had difficulty marketing the new product to the state TV
organization, VOA will distribute the new product via satellite to homes under a
pending affiliate agreement with a private Afghan radio and television network.
Satellite dish ownership now stands at 18 percent in Kabul and is increasing.

     In the meantime, the current weekly program, which appears on state TV in bits
and is unbranded, in part for technical reasons, is still distributed. Embassy Kabul
has worked with an IBB contractor for the Office of Marketing and Program
Placement to distribute tapes of the VOA weekly TV program to TV stations in
cities beyond Kabul, including privately owned stations. In October 2005, the
VOA director of the West and South Asian Division went to Afghanistan to seek
input and ideas for the new daily TV program and to develop private-sector TV
station affiliates so that VOA would not have to rely strictly on Afghanistan state
TV. In the meantime, Afghanistan state TV has shown interest in broadening its
affiliation to take on more content from VOA. At the invitation of Embassy
Kabul, the VOA director for the West and South Asia Division and the director of
IBB's Marketing and Program Placement Regional Office also met with U.S. repre-
sentatives of the Provincial Reconstruction Team, stationed throughout Afghani-
stan. Those representatives expressed great interest in placing VOA/RFERL
programs on the radio and TV stations in their provinces. However, VOA cannot
compete with local content in any future TV programming in Afghanistan unless it
has its own facilities in Kabul, including TV studios. If VOA does not do what is
required to compete well in TV programming, as the Afghan market gradually
moves more and more to TV, then both it and RFE/RL may see their strong
audiences built up through radio diminish along with the opportunity to influence
those audiences.


   Recommendation 1: The Broadcasting Board of Governors should review
   Voice of America's objectives in Afghanistan and, if required, provide Voice
   of America's Kabul news bureau with adequate studios for radio and televi-
   sion work and equip and train the bureau's video journalists. (Action: BBG)


         BBG agrees with this recommendation.



OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006   25 .

                                      UNCLASSIFIED
                                         UNCLASSIFIED



       VOA INTERNET-READY WHEN AFGHANS ARE READY
            Afghanistan is a pre-industrial society where only a third of the population is
       literate and there is little computer and Internet access. According to recent re-
       search, 72 percent of Afghans have never even heard of the Internet.12 However,
       Internet cafes are opening in Kabul. Due to the small audience in Afghanistan for
       the Internet, VOA and RFE/RL are correct in directing their limited Afghanistan
       funds primarily toward radio for the time being. According to VOA director David
       Jackson, VOA has a website -- when Afghanistan is ready for it. VOA's websites
       for Afghanistan are in Pashto and Dari. RFE/RL does the same.




       12
            Radio Free Afghanistan Service Review Presentation, InterMedia, Dec. 2004, p. 5.




26 .                OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006


                                         UNCLASSIFIED
                                      UNCLASSIFIED




   BROADCASTS' IMPACT DIFFICULT TO
             MEASURE

    OIG also reviewed the contribution of BBG's Afghanistan broadcasting efforts
toward the global war on terror, Muslim outreach, and promoting democracy and
women's rights in the new Afghanistan. All of the government officials inter-
viewed see BBG's Afghanistan effort as successful, and BBG Chairman Tomlinson
described the efforts as "one rare case when you can point to results." He said,
"You can see the needle moving. We are getting there." Although BBG has im-
proved its activity measures and has clear goals, it has few metrics for measuring
the results of its activity--to show how the needle has moved and by how much.
The ideal, in terms of the Program Assessment Rating Tool, is to show what is
achieved with a certain amount of dollars and have some confidence about what
will be achieved with additional dollars. This gets to the question of why U.S.
international broadcasting is making a priority effort in Afghanistan and measuring
how those efforts have contributed to results. At the time of this review, BBG was
conducting its first nearly nationwide audience research survey in Afghanistan.
Previous surveys were limited in their coverage of Afghanistan. Nationwide
surveys that track responses over time for certain questions would aid analysis.


   Recommendation 2: The Broadcasting Board of Governors should have its
   research program generate comparable statistics over time from nationwide
   surveys. (Action: BBG)


   BBG concurs with this recommendation, noting that it strives to generate
comparable statistics from the nationwide survey when the security environment
and funding permit. The agency hopes the situation in Afghanistan will improve
and permit a full national sample.




OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006   27 .

                                      UNCLASSIFIED
                                        UNCLASSIFIED



       U.S. INVOLVEMENT IN AFGHANISTAN, ITS RESULTS AND
       VALUE
           U.S. international broadcasting is one tool for the Administration to pursue U.S.
       interests in Afghanistan, the region, and the Muslim world. One of the U.S.
       government's goals, made clear in the United Nations-backed Bonn Agreement of
       2001, is to promote the establishment of a democratically elected representative
       government in Afghanistan. Speaking about the war on terror before the National
       Endowment for Democracy, President Bush said: "We are fighting to deny the
       militants control of any nation. The United States is fighting beside our Afghan
       partners against the remnants of the Taliban and its al Qaida allies... We are
       denying the militants future recruits by advancing democracy..."13

           The BBG mission statement calls for the agency "To promote and sustain
       freedom and democracy by broadcasting accurate and objective news and informa-
       tion about the United States and the world to audiences overseas."14 The BBG
       strategic plan says, "The nature of Terrorism and the tools it uses make U.S. inter-
       national broadcasting a natural, strong counter-weapon in America's arsenal."15
       BBG Chairman Tomlinson, meanwhile, said the impact of BBG Afghanistan
       programming on the global war on terrorism is "as great as any place in the world"
       and that "the war on terror is at the top of BBG priorities."

            During his July 2005 trip to Afghanistan, Tomlinson spoke with Afghanistan
       President Karzai and representatives of Embassy Kabul about expanding U.S.
       government broadcasts in southern Afghanistan and along the Afghanistan-Paki-
       stan border. Afterward, he consulted with the Department and the National
       Security Council and submitted an enhancement proposal to OMB. The proposal
       affirmed that, "Programming to this audience will contribute toward dispelling anti-
       Americanism and promoting democratic values, and even help strengthen
       Afghanistan's national government."16




       13
         Fact Sheet: President Bush Remarks on the War on Terror, The White House, Office of the Press Secretary,
       Oct. 6, 2005.
       14
         Marrying the Mission to the Market, Strategic Plan for U.S. International Broadcasting 2002-2007,
       Broadcasting Board of Governors, p. 2.
       15
         Marrying the Mission to the Market, p. 24.
       16
         Kenneth Tomlinson memorandum of August 24, 2005.


28 .             OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006


                                        UNCLASSIFIED
                                      UNCLASSIFIED



     Indeed, a substantial portion of the Afghanistan Radio Network's programming
is focused on antiterrorism. If that causes Afghans to think about and heed these
messages, U.S. international broadcasting will be able to take some credit for
limiting the pool of potential suicide bombers and for promoting a strong and
democratic Afghanistan.

    Since BBG's mission is to promote and sustain democracy and BBG takes
credit for advancing freedom and democracy, BBG must develop metrics that
provide better information regarding BBG's impact. It must also develop metrics
for its claims of dispelling anti-Americanism. Without question, this is difficult and
involves many external variables outside of BBG's control.

     The United States is also in Afghanistan to champion human rights in general
and women's rights in particular. U.S. efforts in this regard are a demonstration to
the world, and in particular to the Muslim world, of what the United States is all
about in terms of freedom. Under the Taliban, women and girls endured extreme
oppression. Their situation has changed greatly; girls are being schooled and
women are running for Parliament and being appointed to head government minis-
tries.

     BBG has done its part. A focus on women's issues is in the VOA action plans.
RFE/RL hosted First Lady Laura Bush in Prague and made it possible for her to
address the women and girls of Afghanistan. VOA and RFE/RL have female
stringers, and at least one female stringer has interviewed President Karzai. On the
broadcasters' services, many news items, features, and call-in program topics deal
with women's issues. VOA Director David Jackson said there is a strong woman-
oriented element in VOA programming for Afghanistan because of the capable
women who oversee it. The VOA director for West and South Asia Division and
the VOA chief of the Afghan Service are women, as is the RFE/RL associate
director for broadcasting in Prague who oversees the Afghan service. There is
evidence that this broadcasting is, directly and indirectly, having an impact. One
Afghan said in an interview, "I learned on Radio Azadi that a man who beats his
wife would not go to paradise. We talked it over with my wife, and I swore never
to beat her again."17




 Afghan Media, p. 85.
17




OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006   29 .

                                      UNCLASSIFIED
                                     UNCLASSIFIED



       BBG'S INFORMATIVE, CONTENT-BASED PROGRAMMING
           An examination of the program clocks for Radio Ashna and Radio Azadi
       indicates that both services are heavy on content. Some music is broadcast by
       both, but it is used to round out programming, appeal to younger people, and
       demonstrate appreciation for Afghan culture. VOA has also developed a popular
       poetry program that has a dedicated following. VOA reports that its daily program
       mix for Afghanistan is 50 percent news, 25 percent call-in programs, and 25 percent
       cultural programming, but no entertainment as such. RFE/RL reports that its daily
       program mix for Afghanistan is 75 percent news and information, 10 percent
       content such as features, and 15 percent music and entertainment. Among the
       many new private radio stations springing up is one that emphasizes music, Radio
       Arman. Radio Arman was assisted in its start up by USAID and is drawing strong
       audience share in Kabul while trying to expand beyond the city. OIG believes that
       the heavy content orientation of Radio Ashna and Radio Azadi, interspersed with
       some lighter programming, is successful, as confirmed by audience research. It
       meets BBG's objectives and fills a need for the Afghan people.

           Afghan President Karzai has told Radio Ashna and Radio Azadi that he listens
       to their programs. Upon returning from a visit to Afghanistan as part of a congres-
       sional delegation, Congressman Howard Berman said during a hearing on the
       Afghanistan Freedom Support Act of 2002 that "Radio Free Afghanistan, which is
       a product of this committee, is now up and running, and Chairman Karzai told us
       how these broadcasts mean so much to his country because, when he travels
       around to remote pockets of that country for the first time, people know who he is
       because of the radio." Berman also quoted Karzai as saying that his countrymen
       know he is their leader, "not the local warlord, and that is a big difference, and they
       know that because of the radio."18 Although it is difficult to measure the BBG
       contribution, it is clear that the U.S. government has put significant U.S. funds and
       effort into transforming Afghanistan into a peaceful, pro-U.S., democratic country
       that does not protect terrorists. VOA and RFE/RL are contributing to that out-
       come by informing the Afghan people about events in Afghanistan, the region, and
       the world, which improves the stability and strength of Afghanistan's central
       government and presents a true picture of the American people.




       18
         The Afghanistan Freedom Support Act of 2002. Hearing before the Committee on International Rela-
       tions, House of Representatives, One Hundred Seventh Congress, Second Session, March 14, 2002, Serial
       No. 107-80, p. 8.



30 .            OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006


                                     UNCLASSIFIED
                                      UNCLASSIFIED



BBG CONDUCTS ITS ANTI-NARCOTICS EFFORT IN CONCERT
WITH DEPARTMENT
     In 2004, Afghanistan was the source for about 87 percent of the world's pro-
duction of raw opium. The brown heroin produced from that opium is destined
primarily for European markets; only about 8 percent of it ends up in the U.S.
Under an August 2004 interagency agreement with INL, BBG is to receive
$350,000 in no-year money for broadcasting in Dari and Pashto to support
counternarcotics activities. The agreement was to end on September 30, 2005, but
BBG gained permission to use the remaining unspent funds after that date. Broad-
casting was to include in-depth news stories, interview programs, documentaries,
public health features, and call-in shows relating to narcotics production, com-
merce, consumption, and treatment. VOA was the vehicle for this broadcasting.
Using the INL grant, VOA established a network of 19 stringers besides its regular
stringers, who would work in and around Afghanistan to cover narcotics issues,
with support from editors and broadcasters at VOA Washington. Training was
provided to the stringers, using money from the grant. VOA's Dari and Pashto
services, during November 2004 through September 30, 2005, aired 1,328 reports
and panel discussions on drug issues.

     Prior to providing the grant to VOA, INL financed some episodes of a popular
weekly soap opera that dealt with drug abuse and were broadcast in Dari and
Pashto by the British Broadcasting Corporation. Under the grant to the BBG, VOA
has also produced some dramas dealing with drugs. From 2004 to 2005 there was a
20-percent decrease in the acreage of land in Afghanistan that was planted with the
opium poppies. INL and the Afghan government conducted many anti-drug
activities in the period, primarily public exhortations by provincial governors and
religious leaders, and they deserve full credit for this outcome. INL believes VOA
was also a contributor to the outcome of decreased acreage planted with opium
poppy. However, heavy rains and other favorable conditions, resulting in higher
yields, canceled out that reduction in acreage planted and left Afghanistan's annual
opium production virtually unchanged. There are indications that the sale of
opium and heroin has helped fund Taliban insurgents. It likewise weakens the
central government and diverts farmers from more productive crops, at least in
terms of the legitimate commerce that can build Afghanistan's economy. INL
Acting Assistant Secretary Nancy Powell told a congressional hearing that VOA is




OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006   31 .

                                      UNCLASSIFIED
                                          UNCLASSIFIED



       "broadcasting anti-drug messages in both Pashto and Dari that link the drug trade
       to conflict, crime, corruption, and warlordism."19 Anecdotal evidence of the
       impact of such broadcasts can be seen in the statement of one farmer near
       Jalalabad who said, "We discussed the ban on poppy growing a lot among farmers.
       Some of us heard on the radio that it was contrary to Islam and that the prophet
       condemned its cultivation as well as the use of drugs. Therefore, we decided to
       stop, but now our economic situation is precarious."20 As this indicates, VOA's
       radio campaign, in cooperation with INL, can be a contributor to the war on drugs
       but only as part of a comprehensive approach to this complex problem.



                                                                            BBG'S ENHANCED
                               BBG’s Principal
                              Performance Measures
                                                                            AND ALTERNATIVE
            Overall Weekly Audiences- all adults
            listening at least once a week.
                                                                            MEASURES
            Program Quality-using broad categories of                           The Government Perfor-
            criteria for content (12 elements) and                          mance and Results Act of
            presentation (13 elements), an averaged                         1993 requires government
            statistic summarized on a scale of from 1-4                     agencies to set goals and
            (with 1 as worst and 4 as best).                                report annually on program
            Signal Strength-for radio signal monitoring                     performance. BBG now
            by IBB staff of shortwave and medium                            meets those requirements. As
            wave signals in or near target areas.                           mentioned earlier, BBG has
            Cost Per Listener (or Audience Head)-                           improved on its activity
            expressed in dollars and cents and derived                      measures (its process mea-
            by dividing total cost of creating and                          sures) and its output measures
            delivering programs by regular weekly                           (the direct products and
            audience.                                                       services delivered by a pro-
            Awareness-expressed as a percent of the                         gram) but needs to do more to
            sampled population’s “total awareness,” that                    measure results or outcomes.
            is the prompted or unprompted
            acknowledgement of BBG station names.
            Source: BBG strategic plan, Marrying the Mission to the
            Market




       19
         Statement of Nancy J. Powell, Acting Assistant Secretary, Bureau for International Narcotics and Law
       Enforcement Affairs, Department of State, Committee on House Appropriations Subcommittee on
       Foreign Operations, Export Financing, and Related Programs, Congressional Quarterly, July 12, 2005.
       20
          Afghan Media p. 89.



32 .               OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006


                                          UNCLASSIFIED
                                      UNCLASSIFIED



    Two of the four types of program evaluation identified by the Government
Accountability Office are outcome evaluation and impact evaluation. The Govern-
ment Accountability Office describes outcome evaluation as assessing "the extent
to which a program achieves its outcome-oriented objectives. It focuses on outputs
and outcomes...to judge program effectiveness..." Impact evaluation is described as
assessing "the net effect of a program by comparing program outcomes with an
estimate of what would have happened in the absence of the program." The
Government Accountability Office says, "This form of evaluation is employed
when external factors are known to influence the program's outcomes, in order to
isolate the program's contribution to achievement of its objectives."21

    BBG deserves full marks for improving its measures of process and output and
for the results and outcomes achieved. It is possible to review these results for
Afghanistan, in documents such as the BBG Annual Language Service Review and
program reviews, and see impressive measurable results. These measures can be
compared with baselines, IBB standards, or the performances of other language
services and by looking at targets for weekly audience, program quality, awareness,
signal strength, and cost per listener.

    Credibility is one measure of impact. Both Radio Ashna and Radio Azadi have
demonstrated credibility, which gives greater weight to their messages. However,
BBG has not ventured into measuring impact results or outcomes to show whether
the "needle" has moved and how BBG activity and outputs in Afghanistan contrib-
uted to those impacts and outcomes. Given the importance of Afghanistan in the
global war on terror and the Administration's goals there, such measurement would
assist decisionmaking and budgeting. In one case, relatively simple adjustments can
be made. For example, BBG's several offices of research need to modify or add
questions to the audience research surveys conducted by contract research firms,
so they can elicit data that better measures impact. Currently, a standard question
at the end of the survey questionnaire asks if the respondent is favorable or unfa-
vorable to the United States.




 Performance Measurement and Evaluation: Definitions and Relationships, United States Government
21

Accountability Office, GAO-05-739SP, May 2005, p. 4.




OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006   33 .

                                      UNCLASSIFIED
                                      UNCLASSIFIED




            Recommendation 3: The Broadcasting Board of Governors should have its
            several offices of research modify or add questions to the audience research
            surveys administered by contract research firms to elicit data that better mea-
            sures impact. (Action: BBG)


           BBG agrees with this recommendation, with the understanding that this is an
       ongoing and complex process involving many factors. For the near future, the
       agency said credibility is the first and best measure of impact in this difficult target
       area.

           BBG is correct in asserting that there are many external variables over which it
       has no control. Policy, especially when misunderstood, is a major external factor.
       In the Afghanistan environment external factors are insurgent bombings and
       threats, unintended negative consequences arising from the pursuit of insurgents,
       events in other parts of the Muslim world, or a host of other variables. During this
       review, for example, allegations were made regarding the October 1, 2005, desecra-
       tion of the bodies of dead Taliban fighters. This resulted in a condemnation by
       President Karzai and reassurances by U.S. spokespersons that such actions do not
       reflect American values. Meanwhile, Islamic clerics in Afghanistan and observers
       in the United States warned of a possible anti-American backlash. Nevertheless,
       techniques exist that can isolate and measure the positive impact of Afghanistan
       Radio Network broadcasts.

           One such technique with merit is conceptual mapping, a measurement method
       and performance scoring method based on the comparison of "concept maps."
       Concept maps reflect a person's thinking, with symbols such as the plus or minus
       symbol being used to reflect positive or negative associations that the person has
       with a specific concept or idea. A person's relationship with a number of ideas can
       then be represented in a chart that shows which ideas they hold in high or low
       regard. One reference defines concept map as a "a graphical representation where
       nodes (points or vertices) represent concepts, and links (arcs or lines) represent the
       relationships between concepts...The concepts and the links may be categorized,
       and the concept map may show temporal or causal relationships between con-
       cepts.22" Although the method has fuzzy aspects, models and equations exist for




        Concept Mapping: A Graphical System for Understanding the Relationship between Concepts. ERIC
       22

       Digest. Eric Plotnik, ED407938, 1997, p. 1.



34 .             OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006


                                      UNCLASSIFIED
                                      UNCLASSIFIED



quantitative evaluation.23 This method is suitable for complex real-world environ-
ments where multiple changes have measurable impact.24 Conceptual mapping is
also robust enough to deal with assigning causality.25


     Recommendation 4: The Broadcasting Board of Governors should instruct
     its several offices of research to look into alternative measurement instru-
     ments, such as cognitive mapping, to determine whether and how these meth-
     ods can be applied to the measurement of agency performance. (Action:
     BBG)


    BBG concurs with this recommendation and said it and its offices of research
will investigate research techniques, including cognitive mapping, to improve the
agency's research efforts and procedures.




23
  A Performance Scoring Method Based on Quantitative Comparison of Concept Maps by a Teacher and
Students, Makiot Takey, Hitosshi Sasaki, Keizo Nagaoka, and Nobuyoshi Yonezawa. Concept Maps:
Theory, Methodology, Technology, Proceedings of the First International Conference on Concept Map-
ping, A.J. Cañas, J.D. Novak, F.M. González, editors, Pamplona, Spain 2004.
24
  Specification of a test environment and performance measures for perturbation-tolerant cognitive
agents, Michael L. Anderson, Institute for Advanced Computer Studies, University of Maryland, Ameri-
can Association for Artificial Intelligence, 2004.
25
   The use of causal mapping in the design of management information systems, Robert T. Hughes,
Abdullah Al Shehab, and Graham Winstanley, School of Computing, Mathematical and Information
Sciences, University of Brighton, United Kingdom.


OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006       35 .

                                      UNCLASSIFIED
                            UNCLASSIFIED




36 .   OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006


                            UNCLASSIFIED
                                      UNCLASSIFIED




              FORMAL RECOMMENDATIONS


Recommendation 1: The Broadcasting Board of Governors should review Voice
  of America's objectives in Afghanistan and, if required, provide Voice of
  America's Kabul news bureau with adequate studios for radio and television
  work and equip and train the bureau's video journalists. (Action: BBG)

Recommendation 2: The Broadcasting Board of Governors should have its re-
  search program generate comparable statistics over time from nationwide sur-
  veys. (Action: BBG)

Recommendation 3: The Broadcasting Board of Governors should have its sev-
  eral offices of research modify or add questions to the audience research sur-
  veys administered by contract research firms to elicit data that better measures
  impact. (Action: BBG)

Recommendation 4: The Broadcasting Board of Governors should instruct its
  several offices of research to look into alternative measurement instruments,
  such as cognitive mapping, to determine whether and how these methods can be
  applied to the measurement of agency performance. (Action: BBG)




OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006   37 .

                                      UNCLASSIFIED
                            UNCLASSIFIED




38 .   OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006


                            UNCLASSIFIED
                                      UNCLASSIFIED




                               ABBREVIATIONS


BBG                           Broadcasting Board of Governors
DOD                           Department of Defense
IBB                           International Broadcasting Bureau
INL                           Bureau of International Narcotics and Law
                              Enforcement Affairs
kW                            Kilowatt
OIG                           Office of Inspector General
OMB                           Office of Management and Budget
RFA                           Radio Free Afghanistan
RFE/RL                        Radio Free Europe/Radio Liberty
RTVA                          Radio Television Afghanistan
SA/PD                         Bureau of South Asian Affairs' Office of Public
                              Diplomacy
USAID                         United States Agency for International Development
VOA                           Voice of America




OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006   39 .

                                      UNCLASSIFIED
                            UNCLASSIFIED




40 .   OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006


                            UNCLASSIFIED
                                      UNCLASSIFIED




            APPENDIX: TIMELINE OF BBG’S
             AFGHANISTAN OPERATIONS




OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006   41 .

                                      UNCLASSIFIED
                            UNCLASSIFIED




42 .   OIG Report No. ISP-IB-06-02, BBGs’ Operations in and Broadcasting to Afghanistan - February 2006


                            UNCLASSIFIED
 UNCLASSIFIED




UNCLASSIFIED
